In the Supreme Court of Georgia

Dided: May 7, 2018

S18A0276. TAYLOR v. THE STATE.

PETERSON, Justice.
Zachary B. Taylor appeals his conviction for malice murder based on the
2004 death of Lamar Railey 16 days after Taylor struck him with his car.'
Taylor argues that his malice murder conviction is pot supported by sufficient
evidence because the State did not prove intent and causation. He also argues

'The hit and run occurred on February 13, 2004. On May 9, 2005, a Harris County
grand jury indicted Taylor on charges of malice murder, felony murder predicated on
aggravated assault, aggravated assault, and aggravated battery. At a trial held November 29
through December 1, 2005, a jury found Taylor guilty on all counts except felony murder
(which was placed on the dead docket). The trial court merged the aggravated assault
conviction and sentenced Taylor on malice murder and aggravated battery. This Court
affirmed Taylor's convictions on direct appeal. See.Tavlor v. State, 282 Ga. 44 (644 SE2d
850) (2007). On April 16,2013, a Macon Judicial Circuit judge granted Taylor's request for
habeas relief. Taylor was retried February 17-24, 2015; the second jury found Taylor guilty
of murder, felony murder, aggravated assault, and aggravated battery. The trial court
sentenced Taylor to life in prison on the murder count, noted that the felony murder
conviction was vacated, and merged the guilty verdicts on aggravated assault and aggravated
battery. The trial court denied Taylor's motion for new trial, as amended, in an order filed
on March 7, 2016. Taylor filed a timely notice of appeal, and the case was docketed to this
Court's term beginning in December 2017. An out-of-time motion for oral argument filed
by Taylor was denied.

that the trial äourt erred when it denied Taylor's motion to change venue and
when it denied Taylor's challenge under atsonr. Knhcky,;476 U. S. 79(106
SCt 1712, 90 LEd2d 69) (1986). We find that the evidence of intent and
causation was sufficient to convict Taylor of malice murder. We also conclude
that the trial court did not abuse its discretion in denying Taylor's motion for a
change of venue or commit reversible error in denying Taylor's lB at$
challenge. We affirm.
1. Taylor was first tried in 2005, when a jury found him guilty of malice
murder and other crimes. This Court affirmed Taylor's murder conviction on
direct appeal. See, Dxlorv.. Staté. 282 Ga. 44 (644 SE2d 850) (2007) ("Taylor.
J."). In April 2013, Taylor's petition for habeas corpus relief was granted on the
basis that trial counsel had been ineffective in handling issues related to Taylor's
mental health. Taylor was retried in February 2015.
Viewed in the light most favorable to the verdict, the evidence at Taylor's
retrial showed as follows. Taylor had a history of animosity toward Railey, who
owned a body shop and towed Taylor's car at the request of law enforcement in
2002. Claiming that the towing was unlawful, Taylor unsuccessfully sued Railey
in federal court, unsuccessfully sought arrest warrants against Railey, and
2

confronted Railey outside his shop
On the evening of February 13, 2004, Railey and one of his body shop
employees observed a mid-sized sedan parked across the street from the shop
with its engine running. About the same time, Harris County 911 received a call
from a man who identified himself as Zachary B. Taylor, asking that officers be
dispatched to Railey's body shop because a felony was in progress. The caller
said he would be on the scene in a green Chrysler but declinedto explain exactly
what was happening. A few minutes later, 911 began receiving calls from
multiple individuals reporting that they had seen a car strike a pedestrian at a gas
station around the corner from the body shop. Witnesses testified that they saw
a car hit Railey, who was thrown over the car before landing on the pavement;
the car then drove off. One witness, Keith Hammond, reported to 911 that the
car was a dark green Chrysler, with a Harris County tag and a license plate
bearing the letters DAWGLB.
A deputy initiated a traffic stop of a car matching the description given by
Hammond. Taylor was driving the car. In Taylor's car, law enforcement found
an envelope with Railey's name on it, containing documents regarding Taylor's
attempts to obtain an arrest warrant against Railey. Meanwhile, Railey was taken
91

to a hospital and diagnosed with a fractured ankle. He was discharged from the
hospital within a few days.
On February 29, 2004, emergency medical services were summoned to
Railey's borne. He was sitting in a wheelchair with a cast on his right leg. His
blood oxygen saturation and blood pressure were low and he reported feeling
as though be were about to pass out. Railey went into cardiac arrest on the way
to the hospital and was pronounced dead soon after arriving.
Taylor did not concede at trial that he had struck Railey with his car, but
a focus of the trial was whether Railey's death was actually caused by the hit
and run. The GBI medical examiner who performed Railey' s autopsy concluded
that Railey died as a result of a pulmonary thromboembolism that was caused
by deep vein thrombosis ("DVT") in his right leg, which in turn was caused by
trauma to the leg when he was struck by the car. A defense expert testified that
Railey could have been suffering from DVT prior to the incident and that be
could not say to a reasonable degree of certainty that the thrombus below his
right knee traveled to and embolized in his lung.
Taylor challenges on appeal the sufficiency of the evidence to support his
conviction, arguing in particular that the State did not prove two essential

elements of malice murder: (1) that he formed the intent to kill Railey; and (2)
that the hit and run proximately caused Railey's death. We disagree on both
points.
When evaluating the sufficiency of evidence, the proper standard of
review is whether a rational trier of fact could have found the defendant guilty
443 U. S. 307, 319 (99 SCt

beyond a reasonable doubt.

2781, 61 LE2d 560) (1979). "This Court does not reweigh evidence or resolve
conflicts in testimony; instead, evidence is reviewed in a light most favorable
to the verdict, with deference to the jury's assessment of the weight and
credibility of the evidence."..4a0es'c' State. 292 Ga. 506, 506 (739 SE2d 313)
(2013) (citation omitted). "[I]t is the role of the jury to resolve conflicts in the
evidence and to determine the credibility of witnesses, and the resolution of such
conflicts adversely to the defendant does not render the evidence insufficient."
hànv., Státel, 301 Ga. 675, 677 (1) (804 SE2d 113) (2017) (citation and
punctuation omitted).
"A person commits the offense of murder when he unlawfully and with
malice aforethought, either express or implied, causes the death of another
human being." OCGA § 16-5-1(a). Considering first the issue of intent,
5

"[w]hether a killing is intentional and malicious is for the jury to determine from
all the facts and circumstances."

erv. &ate 276 Ga. 665,666 (1)(58 1 SE2d

538) (2003).
[T]be crime of malice murder is committed when the evidence
shows either an express or, in the alternative, an implied intent to
commit an unlawful homicide. The meaning of malice murder is
consistent with the general rule that crimes which are defined so as
to require that the defendant intentionally cause a forbidden bad
result are usually interpreted to cover one who knows that his
conduct is substantially certain to cause the result, whether or not
he desires the result to occur.
$hffiklSt* 281 Ga. 33, 35 (2) (635 SE2d 776) (2006).
Here, the State presented evidence from which rational jurors could
conclude that Taylor intended to hit Railey with his car. In particular, there was
evidence that Taylor bore a grudge against Railey for towing his car, leading
Taylor .to go so far as to sue Railey, seek arrest warrants against him, and
confront him at his shop. See-et son, vStàte.274 Ga. 165, 170-171 (4) (549
SE2d 387) (200 1) (evidence of prior quarrel between defendant and victim may
be admissible to show defendant's intent). There was evidence from which the
jury could conclude that Taylor was lying in wait for Railey outside the shop
minutes before the hit and run occurred. Witnesses testified that the impact was

strong enough to loft Railey several feet into the air, but Taylor drove off
without stopping to render aid. This evidence authorized the jury to conclude
that Taylor intended to hit Railey. The jury thus also was authorized to conclude
that Taylor formed at least an implied intent to kill Railey, as the law assumes
that a person intends a result that his action "is substantially certain to cause,"
and intentionally hitting a pedestrian with a vehicle in a manner that lofts that
person several feet into the air is substantially certain to kill the pedestrian.
Taylor also argues that the State did not prove the requisite causation,
arguing that the record showed there were many different factors in the victim's
death apart from the bit and run. Proximate cause is the causation standard for
murder cases See State v Jacksoxi,. 287 Ga 646, 649 (2) (697 SE2d 757)
(2010); OCGA § 16-5-1 (a). We have held that an unlawful injury is the
proximate cause of death when:
(1) the injury itself constituted the sole proximate cause of the
death; or.. (2) the injury directly and materially contributed to the
happening of a subsequent accruing immediate cause of the death;
(3) the injury materially accelerated the death, although
or
proximately occasioned by a pre-existing cause.
.

...

rowxiv. State, 297 Ga. 685, 688 (2) (777 SE2d 466) (2015) (citation omitted).

Proximate cause is generally a question for the jury. Jackson, 287 Ga. at 652(2).
7

Here, the medical examiner testified that Railey died from an embolism
caused by his hit-and-run injuries. This is enough to show that Taylor's actions
proximately caused the victim's death. See Singlev:v State,, 198 Ga. 212, 214215(1) (31 SE2d 349) (1944) (sufficient evidence of causation where physician

testified that, even if victim died of pneumonia, internal bleeding from beating
left him susceptible to illness). Although Taylor's cross-examination of the
medical examiner suggested another theory for the source of the embolism, the
jury was not required to accept that alternative theory. And although Taylor

points to testimony by his expert, the jury was not required to credit that
testimony. Moreover, even the defense expert conceded that the trauma from the
hit and run contributed to Railey's death, consistent with a finding of proximate
cause. The evidence was sufficient to authorize a rational trier of fact to find
beyond a reasonable doubt that Taylor was guilty of murder.'
2. Taylor also argues that the trial court abused its discretion in denying

2

Taylor also argues that reversal is warranted for the independent reason that the trial

court's jury instructions on causation were confusing. But be does not include this in his
stated enumerations of error, and we do not consider it. See Felix. v. State, 271 Ga. 534, 539
n. 6 (523 SE2d 1) (1999) ("[A]n appealing party may not use its brief to expand its
enumeration of errors by arguing the incorrectness of a trial court ruling not mentioned in the
enumeration of errors.") (citations omitted).

his motion for a change of venue. We disagree.
"In a motion for a change of venue when the death penalty is not sought,
the petitioner must show (1) that the setting of the trial was inherently
prejudicial or (2) that the jury selection process showed actual prejudice to a
degree that rendered a fair trial impossible."

Uv;State.297 Ga. 352,354

(2) (773 SE2d 762) (2015). On appeal, Taylor argues that he made the first
showing, contending that prejudice should have been presumed based on what
he characterizes as extensive publicity about the case in a small community.
"[E]ven in cases of widespread pretrial publicity, situations where such publicity
has rendered a trial setting inherently prejudicial are extremely rare." Id. "The
record must establish that the publicity contained information that was unduly
extensive, factually incorrect, inflammatory or reflective of an atmosphere of
hostility." Id. The trial court's decision on a motion to change venue is reviewed
only for an abuse of discretion. Id.
The trial court did not abuse its discretion here. Although Taylor correctly
notes that the Supreme Court of the United States has occasionally found that
publicity about a case created a presumption of prejudice that could not be
rebutted by jurors' assurances of impartiality during voir dire, the record here

does not come close to showing the sort of extreme publicity that has supported
such apresumption. ComparSh*tt%c..Maxwc.iL 384 U. S. 333, 352-355 (86
SCt 1507, 16 LE2d 600) (1966) (media "took over practically the entire
courtroom" at trial, and coverage included publication of photos of prospective
jurors); Es tTt 381 U. S. 532, 538 (85 SCt 1628, 14 LE2d 543) (1965)
(media "bombard[ed]

.

.

the community with the sights and sounds of' a

pretrial hearing; four of the jurors selected saw all or part of those broadcasts);
373 U. S. 723, 726-727 (83 SCt 1417, 10 LE2d 663)
(1963) (local television station in small town broadcast defendant's confession
to police on three occasions before trial); with S1dlUngv.Unitd States, 561 U.
S. 358, 379-385 (130 SCt 2896, 177 LE2d 619) (2010) (distinguishing
Sbph'erd, Estes, andLRdeau as "extreme" cases in which the trial atmosphere
was "utterly corrupted by press coverage"); .]attdnV. Yount 467 U. S. 1025,
1029-1035 (104 SCt 2885,81 LE2d 847) (1984) (any presumption of prejudice
at time of first trial dissipated by time of retrial four years later, even though two
local newspapers each published "an average of less than one article per month"
many "extremely brief announcements" of court dates

-

in the year and a

-

half between reversal of the first conviction and start of voir dire at second trial
10

and most prospective jurors said they had an opinion about the case). The
Supreme Court has made clear that news accounts alone do not presumptively
deprive the defendant of due process and that "juror impartiality.

. .

does not

require ignorance."Skiiiing,. 561 U. S. at 380-381.
Taylor put into the record only three news articles, two apparently from
2004 and one dated October 12, 2013 (after Taylor was granted habeas relief).3
Three articles

two more than 10 years before retrial

-

hardly amount to

-

pervasive pretrial publicity. See .Redding VI. $tatej. 292 Ga. 364, 367 (3) (738
SE2d 49) (2013) (no abuse of discretion in denying motion for change of venue
where the complained-of pretrial publicity consisted of two local newspaper
articles published more than a year before trial and only two prospective jurors
indicated they had any familiarity with the case); see also .SkiUing; 561 U.S. at
383 (distinguishing "cases in which trial swiftly followed a widely reported
crime"). Although the copies of the 2004 articles in the record are largely
illegible, the articles in the record do not appear to contain any confession on the

In a supplemental brief, Taylor states that "[i]xi addition to the articles present in the
record, a simple online search of Taylor's trial reveals 186,000 hits, including several
published books." But Taylor did not present any such evidence to the trial court, and we will
not consider it here.
11

part of the defendant, something the Supreme Court has identified as
particularly prejudicial. SeeSli56l U.S. at 382-383. The articles do not
appear to evidence an atmosphere of hostility in the community. The 2013
article indicates that the victim's widow was dismayed that Taylor had been
released from prison and might be retried, but that sort of negative reaction on
the part of a victim's family is hardly remarkable, and the 2013 article does not
show that the public shared the widow's views or was otherwise hostile toward
the defendant. Taylor has not shown that the type and amount of press coverage
of the case was of such an extreme sort that a presumption of prejudice arose.
Although Taylor points to remarks by several prospective jurors to the
effect that they had heard about the case, such remarks do not transform that
press coverage into the sort justifying a presumption of prejudice.4 Moreover,
Taylor failed to exhaust his peremptory challenges, and the general rule is that
a trial court's denial of a motion for change of venue will not be reversed where
the appellant failed to exhaust his strikes. SeeBradyv. St'te, 270 Ga. 574, 575

I a supplemental appellate brief, Taylor argues that the trial court erred in declining
to excuse an entire panel based on the remark of one prospective juror who was excused for
cause, but such a claim is not contained within his enumerations of error, and we do not
consider it.
4

12

(3) (513 SE2d 199) (1999). We find no abuse of discretion in the denial of
Taylor's motion.
3. Finally, Taylor argues that the trial court erred by denying his Báfs.
challenge. The trial court did not commit reversible error in this regard.
Forty-seven jurors were qualified by the court and brought before the
parties to exercise their peremptory strikes. Taylor brought aBatson challenge
on the basis that the State had exercised seven of its nine peremptory strikes to
eliminate African-American members of the venire. A Batson challenge
involves three steps: "(1) the opponent of a peremptory challenge must make a
prima fade showing of racial discrimination; (2) the proponent of the strike
must then provide a race-neutral explanation for the strike; and (3) the court
must decide whether the opponent of the strike has proven the proponent's
discriminatory intent."c1

1, Staje, 301 Ga. 720, 723 (4) (804 SE2d 24)

(2017) (citation and punctuation omitted). Here, the prosecutor acknowledged
"the percentages are probably a prima facie case." The trial court found that
Taylor made a prima facie showing of purposeful discrimination, and the
prosecutor proceeded to offer explanations for her strikes:
She said she struck Juror No. 2 because he indicated that he had
13

heard about the case, knew Taylor and was friends with his family
and thought that might impact his decision-making as a juror, had
a sister who was a criminal defense attorney, and knew Juror No.
13.
She said she struck Juror No. 13 because he indicated that he knew
Juror No. 2 and Taylor, was a friend of Taylor's family, knew
someone who had been falsely accused of a crime, had a brother
who be thought was treated unfairly by the criminal justice system,
and had a son in jail.
She said she struck Juror No. 15 because she said her son had been
falsely accused of a crime and because she was a union advocate;
in her experience, the prosecutor said, those who represent unions
are not prosecution-friendly.
•

She said she struck Juror No. 18, a minister who had visited
parishioners in jail, because ministers tend to forgive and do not
want to decide whether someone is guilty.
She said she struck Juror No. 35 because he said he thought his
daughter had been wrongly accused and convicted on charges
related to a robbery.
/

She said she struck Juror No. 56 because he had unrealistic
stating that he
expectations of what must be offered at trial
would need to hear from the defense and that he has "to see it for
myself' and because he "made a face" at the prosecutor.
-

-

•

She said she struck Juror No. 59 because she stated that she was
dissatisfied with the criminal justice system, in particular because
her son had been unfairly charged with a crime involving a road
rage incident.

The trial court denied the challenge, saying the prosecutor had proffered race14

neutral reasons for each of her strikes and that the reasons offered were
credible.'
Taylor argues that the State failed to provide valid, race-neutral
explanations for each of the challenged strikes of African-American jurors. "At
step two, the proponent of the strike need only articulate a facially race-neutral
reason for the strike. Step two 'does not demand an explanation that is
persuasive, or even plausible."' _-,ToOMOrw Stat.292 Ga. 49, 54 (2) (b) (734
514 U. S. 765,768(115 SCt 1769,

SE2d 333) (2012) (quoting

131 LE2d 834) (1995)). The trial court did not err in concluding that the
prosecutor had offered satisfactory race-neutral reasons for striking the jurors.
Each of the reasons offered by the prosecutor for her strikes

familiarity with

-

the defendant, his family, or another juror; employment of the juror or a member
of their family; union advocacy; criminal history of family members;
expectations of what would be shown at trial; and juror demeanor during voir
dire

is race-neutral on its face, Although Taylor argues that some of these

-

Taylor notes in a supplemental appellate brief that the State struck an AfricanAmerican juror during the process of selecting alternate jurors. Taylor did not challenge this
strike before the trial court, however, and we do not consider any challenge to the strike now.
See Powell, 297 Ga. at 355-356 (3) (issue waived where no Baton challenge or other
objection regarding racial composition of jury was made below).
15

reasons

in particular employment as a minister or knowledge of someone

-

with a criminal conviction

"reflect unacceptable stereotypical attitudes as to

-

particular groups and cannot be considered race-neutral[,]"' we previously have
held that these reasons are sufficient to satisfy the prosecutor's burden under
step two. See Vilking yState, 291 Ga. 483, 485 (2) (731 SE2d 346) (2012)
(criminal history of family members is sufficiently race-neutral reason to
exercise peremptory strike); tricev. State 266 Ga. 102, 103 (2) (464 SE2d 205)
(1995) (employment is race-neutral characteristic) (citing Higginbotham v.

State, 207 Ga. App. 424,426(3) (428 SE2d 592) (1993) (employment as pastor
is race-neutral factor)).

6

Taylor also suggests that the prosecutor justified her strikes based on particular

jurors' habits as "churchgoers," contending this also reflected an unacceptable stereotype.
But the notion that the prosecutor offered this reason for any of her strikes is not supported
by the record. After the prosecutor explained that she struck Juror No. 18 because he was a
minister, defense counsel responded that if the prosecutor were striking him based on his
religion, "the State's got a problem" because "the law is beginning to recognize some Batson
challenges based on religion." The prosecutor replied simply, "It's a race neutral reason."
Taylor cites Foster v..Chapman, 136 S. Ct. 1737 (195 LE2d 1)(2016)to suggest that striking
a juror based on their church membership is not race-neutral. But in that case the Court relied
on a number of factors including a note in the prosecution's file that suggested it wanted
no juror from a "Black Church"-to conclude that a prospective juror's church membership
was not the real reason the prosecution struck him but a mere pretext for racial
discrimination. Id. at 1751-1754. There is no such evidence here to support a claim that the
prosecutor's reliance on Juror No. 18's religious work was a mere pretext for racial
discrimination, and Taylor has not raised a claim of religious discrimination.
-

16

Taylor relies on case law from the Court Of Appeals to suggest that the
State's reliance onprospectivejurors' demeanor was improper, as impermissibly
based on speculation and conjecture. See :Georev, State 263 Ga. App. 541,
544-545 (2) (a) (588 SE2d 312) (2003) (finding "unpersuasive" prosecutor's
explanation that he struck juror in part based on demeanor); Parkerv..State; 219
Ga. App. 361, 364 (1) (464 SE2d 910) (1995) (explanation that prospective
jurors were struck based on demeanor "not the kind of concrete, tangible,
race-neutral, case-related and neutrally applied reasons sufficient to overcome
[defendant]'s prima facie case"). But we have disapproved the core analysis of
those decisions and expressly disapproved Parker, noting that "both the United
States Supreme Court and this Court have squarely held that a peremptory strike
based upon a juror's demeanor during voir dire may be race-neutral at Batson
step two." Toomer. 292 Ga. at 54 (2) (b); see also Littlejbhn v•Sath, 320 Ga.
App. 197,202 (l)(c)n. 3 (739 SE2d 682) (201 3) (noting Toomer's disapproval
of standard employed in Ceorge).7
'Taylor also argues in a supplemental brief that the State's explanation that it struck
certain jurors because they expressed dissatisfaction with the criminal justice system or
similar attitudes is not truly race-neutral because "such attitudes are culturally interwoven in
the Black Community, a symptom of being a historically oppressed minority[.]" But
regardless of the accuracy of Taylor's sweeping assertions, the Supreme Court of the United

17

Turning to the trial court's ultimate determination at step three, Taylor
argues that the prosecutor's explanations were not credible because they in some
instances misrepresented the testimony of African-American prospective jurors
and because the prosecutor did not strike similarly-situated non-black jurors. At
the third step of the 'Bijk

analysis, the trial court "makes credibility

determinations, evaluates the persuasiveness of the strike opponent's prima facie
showing and the explanations given by the strike proponent, and examines all
other circumstances that bear upon the issue of racial animosity. ":c leman 301
Ga. at 723 (4) (citation and punctuation omitted). That a prosecutor's
explanation for a peremptory strike is not supported by the record or would
apply equally to a similarly-situated non-black juror may support a finding of
discriminatory intent at

so's third step. See i ifler-E1v. Dretke, 545 U. S.

231, 241-252 (125 SCt 2317, 162 LEd2d 196) (2005). But "[a] trial court's

finding as to whether the opponent of a strike has proven discriminatory intent

States has instructed us that a disproportionate impact does not transform a given criterion
for jury selection into a per se violation of the Equal Protection Clause. Hernaidezv.New
York, 500 U. S. 352, 361 (111 SCt 1859, 114 LE2d 395) (1991) (plurality); id. at 372-375
(O'Connor, J., concurring in judgment). We thus have held that having a family memberwho
the prospective juror believes was falsely accused is a facially race-neutral reason for being
struck. See ..iiliSv.$tate1 287 Ga. 703,708-709(5) (699 SE2d 1) (2010) (citing Jerandez).

II3

is entitled to greatdeference and will not be disturbed unless clearly erroneous."
Woodall v State, 294 Ga. 624,627(3) (754 SE2d 335) (2014), see also Sffder
v Jomsiana, 552 U S 472,477(128 SCt 1203, 170 LEd2d 175) (2008) ("The
trial court has a pivotal role in evaluating Batk claims. Step three of the
;B?tofl inquiry involves an evaluation of the prosecutor's credibility, and the

best evidence of discriminatory intent often will be the demeanor of the attorney
who exercises the challenge[.]" (citations and punctuation omitted)).
In a supplemental brief, Taylor argues that some of the prosecutor's
explanations for her strikes of African-American prospective jurors
miseharacterized those jurors' statements during voir dire. Taylor's arguments
in this regard are themselves unsupported by the record or involved only minor
discrepancies between the prosecutors' statements and those of the prospective
jurors. In one instance, Taylor accurately points out the record contains no
support for the prosecutor's explanation that she struck Juror No. 13 in part
because he indicated that he knew Taylor and was a friend of Taylor's family.
But, particularly given that the prosecutor also offered other, race-neutral
reasons for striking Juror No. 13, we cannot conclude that this discrepancy is a
basis for concluding that the trial court clearly erred in finding no discriminatory
19

intent.
Notwithstanding Taylor's attempts to draw comparisons between black
jurors who were struck by the State and non-black jurors who were not, we
cannot conclude that the trial court clearly erred in its determination that Taylor
had failed to prove discriminatory intent 8 Taylor's suggestion that the State
failed to strike a non-black prospective juror who was similarly-situated to the
African-American pastor struck by the State is not supported by the record, as
the trial court excused the entire panel on which a non-black juror who was a
minister and had visited a friend in jail appeared. Taylor asserts that there were
non-black jurors who, like Juror No. 2, had heard about the case or had attorneys
in their families,' but he does not attempt to show that any of those non-black
We note that Taylor never drew the trial court's attention to most of the particular

non-black venire members who he now contends were similarly-situated to the black venire
members struck by the State. See Swcic, 552 U. S. at 483 (noting dangers of comparing
jurors based on cold appellate record when alleged similarities were not raised at trial but
proceeding to do so given that the particular shared characteristic concern about serving
on the jury due to conflicting obligations was thoroughly explored by the trial court when
the relevant jurors asked to be excused for cause); UnitdSttes '.flouston, 456 F3d 1328,
1338-1339(11th Cit. 2006) (pre-Snyder, refusing to find error in trial court's failure to draw
comparisons between jurors that no party asked it to draw). We need not resolve the question
of whether that failure precludes his argument now, because his argument fails on the merits
in any event.
-

-

Although Taylor does not cite to the record for this point, it appears that neither of
the jurors to whom he refers actually had an attorney in their family; one stated that he was

$

¶
.

jurors knew Taylor or his family, like Juror No. 2 did. And although Taylor
argues that the State declined to strike several non-black jurors who, like Juror
No. 56, expressed concerns about fairness to the defendant, he does not purport
to show that any other juror expressed the same sort of need "to see it for
myself' expressed by Juror No. 56.'° Finally, although Taylor complains that the
State did not strike non-black prospective jurors who had a family member with
a criminal history, all four of the African-American venire members struck for
that reason also stated that they believed that their family member had been
wrongly accused, offering an additional race-neutral reason for the strikes. See
ilii v. State. 287 Ga. 703,708-709 (5) (699 SE2d 1) (2010). Of the allegedly
similarly-situated non-black jurors to which Taylor points, none responded
affirmatively to the question of whether they felt they knew someone who had
been falsely or mistakenly accused. We cannot conclude that the trial court
clearly erred in finding an absence of intentional discrimination.
Judgment affitñed All the.. Jtkes concur. Oxcept Biackweil J. who
concurs injudgment only as to Division 1

friends with a lawyer, and another stated that his wife "works for lawyers[.]"
the three jurors Taylor claims are comparable to Juror No. 56, two were struck
by the State and one was struck for cause over the State's objection.
'° Of

21

